                    RESULTS OF KPMG VULNERABILITY 

                   TECHNOLOGY SECURITY ASSESSMENT 

                          AUDIT NUMBER 7-16 


                                     MARCH 6, 2007 





This report may contain proprietary information subject to the provisions of 18 USC 1905 and
must not be released to the public or another agency without permission of the Office of
Inspector General.
                        u.s. SMALL BUSINESS ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL
                                WASHINGTON, D.C. 20416


                                           March 6, 2007

To:            Christine Liu
               Chief Information Officer


From:          Debra Ritt
               Assistant Inspector General for Auditing

Subject:       Results ofKPMG's Information Technology Security Assessment

Attached is the report on the results of an Information Technology Security Assessment issued
by KPMG LLP, which identifies entity-wide security vulnerabilities that were identified during
its audit of SBA' s FY 2006 financial statements. Due to sensitive information contained within
this report, the report will not be released to the public.

The audit was performed under a contract with the Office of Inspector General (OIG) and in
accordance with Generally Accepted Government Auditing Standards; Office of Management
and Budget's (OMB) Bulletin 06-03, Audit Requirements for Federal Financial Statements, the
Government Accountability Office (GAO)/President's Council on Integrity and Efficiency
(PCIE) Financial Audit Manual and GAO's Federal Information System Controls Audit Manual.

SBA generally agreed with the findings and recommendations and provided target completion
dates for all 7 recommendations made by KPMG. We plan to track SBA's implementation of
KPMG's recommendations through the audit follow-up process.

We appreciate the courtesies and cooperation of the Small Business Administration
representatives during this audit. If you have any questions concerning this report, please call
me at (202) 205- [Exemption 2] or leffBrindle, Director of the Financial Management and
Information Technology group, at (202) 205- [Exemption 2].

Attachment
UNITED STATES SMALL BUSINESS ADMINISTRATION 





     FY 2006 FINANCIAL STATEMENT AUDIT 





        Results of the Information Technology 

         Security Vulnerability Assessment 




         Contract Number - 43-3151-5-2003 



      Task Order Number - AG-3151-D-06-0088 





                --FINAL REPORT-­

                   March 1, 2007
                             Limited Official Use - Sensitive
                                                                                      Page 1


Results In Brief   The Small Business Administration (SBA) Office of Inspector General
                   (OIG) contracted with KPMG LLP to perform the FY 2006 external
                   and internal vulnerability assessment in support of the fiscal year 2006
                   fmancial statement audit for SBA. As a result, KPMG performed a
                   limited vulnerability assessment to assess the security controls for key
                   SBA network devices and related device operating software. The
                   scope of the review included key SBA' s internal network devices and
                   systems (i.e., available from within the SBA network), and external
                   network devices and systems (i.e., available over the Internet).
                   Information security is a critical control element for SBA, both from a
                   financial processing perspective and an operational perspective.

                   The purpose of a vulnerability assessment was to test the
                   implementation of information security controls for key network and
                   system devices supporting financial and administrative processing
                   activities. To perform this review, KPMG information security analysts
                   utilized several automated assessment tools and their knowledge of
                   known security exploits to identify potential security vulnerabilities.
                   The SBA Office of Chief Information Officer (OCIO) and IT security
                   (ITSEC) personnel were aware of our review efforts at all times, and
                   critical issues were communicated to SBA personnel as they were
                   identified. All results of the testing have been communicated to the
                   appropriate management officials within OCIO, the Office of the Chief
                   Financial Officer (OCFO) and the Office of the Chief Operating
                   Officer (OCOO).


                      [The remainder of this page
                       and all of pages 2, 3 & 4
                      are redacted in accordance
                           with Exemption 2]
                                                      APPENDIX I 

                                                           Page 1 


                                           MANAGEMENT COMMENTS




[Pages 1 thru 5 redacted in accordance with 

                Exemption 2] 





             Limited Official Use - Sensitive
                                                                                                                                      APPENDIX II 





REPORT DISTRIBUTION


Recipient                                                                                                              No. of Copies

Office of the Chief Financial Officer 

Attention: Jeffrey Brown ......... .... .... ...... ..... .............. .... ... .... ......................... 1 


General Counsel .... ....... .... ..... ... ........................... .. ....... ................ .... ... ...... .............. .3 


Office of Management and Budget.. ................................... ..... ..... .. ............ ... ..... ..... 1 


u.s. Government Accountability Office ....... ..... ... ...... ... ............ ...... ....... ....... ... ...... 1 

